<html>
<title> - THE PALESTINIAN AUTHORITY'S</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      THE PALESTINIAN AUTHORITY'S
                      
                  INTERNATIONAL CRIMINAL COURT GAMBIT:
                  
                       A TRUE PARTNER FOR PEACE?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2015

                               __________

                            Serial No. 114-3

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                                     ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-158 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     

                                 ______
                                 
                                                                                                                                                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jonathan Schanzer, Ph.D., vice president for research, Foundation 
  for Defense of Democracies.....................................     8
Mr. Eugene Kontorovich, professor of law, Northwestern University 
  School of Law..................................................    24
Ms. Danielle Pletka, senior vice president, Foreign and Defense 
  Policy Studies, American Enterprise Institute..................    43
Mr. David Makovsky, Ziegler distinguished fellow, The Washington 
  Institute for Near East Policy.................................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Jonathan Schanzer, Ph.D.: Prepared statement.....................    11
Mr. Eugene Kontorovich: Prepared statement.......................    26
Ms. Danielle Pletka: Prepared statement..........................    45
Mr. David Makovsky: Prepared statement...........................    53

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    74

 
                      THE PALESTINIAN AUTHORITY'S

                  INTERNATIONAL CRIMINAL COURT GAMBIT:

                       A TRUE PARTNER FOR PEACE?

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
First, I would like to welcome our new members to the 
subcommittee. As we begin this new Congress, I look forward to 
working with my wonderful friend, the ranking member, Mr. 
Deutch, the returning members of the subcommittee, and our new 
members, so that we can continue to work in a bipartisan manner 
to conduct our oversight responsibilities and further advance 
our foreign policy initiatives and priorities in the region.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
any other member seeking recognition for 1 minute.
    We will then hear from our witnesses, and without 
objection, the witnesses' prepared statements will be made a 
part of the record, and members may have 5 days to insert 
statements and questions for the record subject to the length 
limitations in the rules.
    I would like to remind audience members that disruption of 
committee proceedings is against the law and will not be 
tolerated, although wearing themed shirts while seated in the 
hearing room is permissible, holding up signs during the 
proceedings is not. Any disruptions will result in a suspension 
of the proceedings until the Capitol Police can restore order. 
And we want you to stay because it is going to be a good 
hearing. So please don't leave or let yourself be left.
    The Chair will now recognize herself for 5 minutes.
    In the wake of the administration's failed attempt at 
achieving an Israeli-Palestinian peace agreement last spring, 
Abu Mazen and the Palestinian leadership have increased in both 
intensity and pace their scheme to achieve unilaterally what 
they have refused to do so directly with the democratic Jewish 
State of Israel, which is establish an independent state of 
Palestine. The latest and perhaps most dangerous manifestation 
of this push was when Abu Mazen and the Palestinians acceded to 
the Rome Statute to join the International Criminal Court after 
last December's Palestinian-backed U.N. Security Council 
resolution failed. That the administration was unable to 
prevent the Palestinian leadership from going to the U.N. and 
then again to the ICC, underscores the notion that our 
credibility and leverage have waned so much to the point where 
our diplomacy efforts end up doing perhaps more harm than good. 
The situation and these problems perhaps could have been 
avoided had the administration taken a tougher stance with the 
PA using the only real leverage that we have, namely the 
hundreds of millions of dollars that we give each year, instead 
of coddling it and refusing to cut off the aid, hoping and 
wishing that Abu Mazen would change his tune.
    President Obama should have immediately suspended all aid 
to the PA once the unity deal between Fatah and Hamas was 
announced. The letter and the intent of the law is clear: No 
funding can go to a power-sharing government that includes 
Hamas or a government that is backed by the terrorist group. 
Instead, the administration interpreted that the new PA 
Government was formed in a manner that did not trigger this 
law. That was a huge mistake, as it once again undermined our 
ability and credibility on the world stage, only served to 
encourage Abu Mazen to further challenge the U.S., to further 
challenge Israel, believing that he had been given the implicit 
support of the administration.
    And now we once again find ourselves in a situation where 
the administration is refusing to follow the letter and the 
intent of the law in the wake of the Palestinians joining the 
ICC and the ICC opening an investigation into Israel over 
alleged war crimes. The ICC has already shown its 
overzealousness, which has caused concern. It admitted a non-
state party. It is attempting to claim jurisdiction over a non-
member state. It has signalled that it is willing to use 
political determination rather than legal ones, and it is 
essentially defining Israel's borders and the borders of a non-
existent state of Palestine, which is completely beyond its 
jurisdiction.
    U.S. law is clear that should the Palestinians join and 
initiate or support an investigation into Israel, all funding 
for the PA must be suspended. Yet the administration not only 
continued funding, but it requested $370 million for the PA in 
the President's budget released just 2 days ago. Congress must 
not allow the President to continue to ignore the letter and 
the intent of the laws that we pass. Abu Mazen must be held 
accountable for his actions, and the PLO must be held 
accountable, and we must also hold the President accountable to 
uphold the laws.
    It is long past time that the administration reassess its 
policy approach to Israel and the Palestinians. What has 
resulted since the administration failed to achieve a bilateral 
agreement between the two parties last spring is a litany of 
foreign policy failures, one after the other. First, Abu Mazen 
and PA's ruling party, Fatah, and the designated terrorist 
group Hamas formed a unity government. Tensions escalated 
between Gaza and Israel, aided by the incitement from Abu Mazen 
which led to the brazen kidnapping and brutal murder of three 
Israeli teens by members of Hamas.
    Hamas launched a full rocket attack campaign against Israel 
which then ultimately resulted in last summer's conflict in 
Gaza. Despite this, the administration continues to show its 
tone-deafness when it comes to the Israelis and the 
Palestinians. And it is easy to see how its efforts at peace 
last year actually encouraged Abu Mazen to push forward with 
his unilateral statehood scheme, which has brought us to where 
we are today. Yet the administration focuses its time and 
effort to alienate our ally Israel and has taken unprecedented 
steps to openly chastise and criticize Israeli leadership in 
the media. Talk about misplaced priorities and failed 
diplomacy.
    And with that, I am pleased to yield to my friend, the 
ranking member Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Chairwoman Ros-Lehtinen, and let me 
also take just a moment to welcome back the members of this 
committee and our three new members as well. I would like to 
note that Chairwoman Ros-Lehtinen and I have worked to make 
this committee function in a bipartisan way, and while their 
may be differences of opinion, we appreciate the way the 
members of this committee have found areas to work together. 
And we hope that that spirit of bipartisan continues this 
Congress.
    Thanks to our panel for being here. You are familiar faces 
to this subcommittee, and we welcome you back.
    There is no doubt that this hearing comes at an 
extraordinary time in Israeli-Palestinian relations. After 
nearly 2 years of dialogue and talks, the peace process is 
stalled, and we are finally facing what many of us have feared, 
an effort by the Palestinians to circumvent negotiations 
altogether.
    But achieving a state through unilateral measures has 
failed, and it will always fail. Nevertheless in a move that 
will only set back his cause, President Abbas went to the 
International Criminal Court, and despite U.S. efforts to halt 
PA's accession, U.N. Secretary General Ban Ki-Moon has 
announced that the PA will become members of the ICC on April 
1. Perhaps more importantly, the PA has already ceded 
territorial jurisdiction to the ICC, allowing for the initial 
steps of an investigation. And as we will hear from our 
witnesses today, the ICC has never undertaken a case like this, 
and it is unknown if this moves forward, how long an 
investigation might take and what the implications might be.
    This kind of unilateral action is unacceptable. It is an 
egregious breach of U.S. trust, and despite the repeated 
warnings of Congress and the administration, despite changes 
made in U.S. law to respond to these actions, President Abbas 
chose to take these reckless actions that do nothing to advance 
peace, nothing to advance peace. And so, in response, I and 
other senior members of this committee have informed the 
administration that in the meantime, no new aid to support the 
PA will be approved. Other strong measures of disfavor will be 
considered by this committee and by this Congress.
    Now let me be clear: I don't want to see the breakdown of 
cooperation between the PA and Israel. It is in both of their 
interests to continue strong security cooperation in the West 
Bank. This coordination prevents terrorist attacks. It leads to 
the neutralization of Hamas operatives, and it saves innocent 
Israeli and Palestine lives. The ending of such cooperation 
could lead to increased violence and attacks on Israel. And I 
hope that those in the Palestine authority who use a cutoff in 
security operation as a threat understand the implications of 
this for their people.
    Madam Chairman, so many of us want a genuine peace, a peace 
with two states for two people. I want to see Israel continue 
to thrive as a safe and secure democracy, and I would like to 
see stability and success for the Palestinian people. But the 
actions that we have seen by President Abbas over the last few 
months move us further and further from this goal. Longstanding 
U.N. resolutions, as well as U.S. and Quartet policy, states 
that lasting peace will only come through direct negotiations. 
There are hard choices that are going to have to be made on 
both sides, but simply refusing to negotiate, circumventing the 
established process, not getting back to the President of the 
United States to respond to proposals during negotiations, 
suggests a clear unwillingness to make those hard choices. 
Israel faces terrorist threats on every one of its borders. 
Hezbollah is armed with tens of thousands of rockets, and as we 
saw last week, is willing to attack. Hamas digs tunnels and 
launches rockets at Israeli civilians. Terrorist in the Sanai 
launch attacks in the south, not to mention the existential 
threat of a nuclear-armed Iran. So for those of us who seek 
peace, we know that Israel's safety and security must never be 
compromised, which is why many of us here have a hard time 
understanding why anyone who believes in peace would ever 
choose to partner in a government with a terrorist 
organization, one that launched over 3,000 rockets at civilians 
this summer, one that has never recognized Israel's right to 
exist, has not recognized even Israel's very right to exist, 
has never renounced violence, and continues to incite violence 
on a daily basis.
    So what happens next? What are the ramifications if the ICC 
continues to move forward with an investigation? Well, U.S. law 
is clear. There will be no aid to the Palestinian Authority, 
but more broadly, these actions fundamentally have changed the 
relationship between the United States and the Palestinian 
Authority. And the question that I have for the panel is, have 
we reached the place where negotiations are simply out of 
reach?
    And I look forward to hearing from our wonderful group of 
panelists today, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    I know that some of our audience members got here late, so 
before we proceed, I would like to remind our guests that they 
must remain seated, and they cannot hold up signs. And I would 
like to remind audience members that the disruption of 
committee proceedings is against the law, will not be 
tolerated.
    Although wearing themed shirts while seated in the hearing 
room is permitted, holding up signs during the proceedings is 
not. Any disruptions will result in a suspension of the 
proceedings until Capitol Police can restore order.
    We don't want to get anyone in trouble. So please don't 
make me do that.
    Thank you so much.
    With that, I would like to recognize the members of our 
subcommittee for any opening statement they would like to make.
    And I will start with Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chairman, and you are 
exactly right: Funding should have stopped the minute that 
unity government was formed. That is what the law says. I don't 
think the administration was faithful to that.
    It is interesting, you have Hamas and Fatah, they are going 
to go and accuse Israel of war crimes, and yet they have been 
conducting terror attacks, suicide attacks, rocket attacks, 
using human shields. When Israel tries to defend itself, they 
have consistently violated international law. So it is a 
curious thing to do. I think the reason that they are doing it 
is because they see that Israel is under siege by hostile 
forces, now Hezbollah even more so. And I think this effort is 
designed to impose political costs on Israel for defending 
itself against attacks by a group that desire Israel's 
destruction.
    And if you can launch attacks from Gaza, and then when 
Israel responds, the world blames Israel, then they may not be 
willing to respond as forcefully as they need to to defend 
their citizens. So we should call this gambit what it is, and 
we should respond with the power of the purse.
    Ms. Ros-Lehtinen. Thank you so much, sir.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for calling this timely hearing today.
    And thank you to our witnesses for offering your testimony.
    We know that lasting peace will only come about as a result 
of a direct set of negotiations that ultimately lead to a two-
state solution. This is the only viable way to resolve the 
conflict between Israel and the Palestinian people, not through 
unilateral action. The breakdown of talks led by Secretary 
Kerry and the subsequent military conflict last summer were 
extremely disappointing. And the Palestinian decision to form a 
unity government with Hamas, a terrorist organization, and then 
to pursue recognition at international institutions, including 
the ICC, in complete disregard of their agreements made in 
accordance with the Oslo Peace Accords has seriously 
jeopardized the possibility of a peaceful solution.
    I also fear this move, and the inevitable reaction by 
Israel and ultimately the United States if a case does move 
forward, will jeopardize the viability of the Palestinian 
Authority leading to a dangerous power vacuum in the 
Palestinian territories.
    I look forward to the testimony of our witnesses and hope 
that we can get some clarity on what this development means for 
the future of U.S. relations with Israel and the Palestinian 
Authority.
    I thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chair.
    I look forward to hearing from the panel with concrete 
suggestions on how we can change our policy so we don't have 
this meeting next year talking about the same things. We need a 
paradigm shift, and I look forward to hearing from you your 
suggestions so we can implement that and talk about baseball 
next time you come here.
    Ms. Ros-Lehtinen. Mr. Boyle, one of our new members from 
Pennsylvania is recognized.
    Welcome.
    Mr. Boyle. As a new member, I have to learn to hit the 
button that says talk.
    Thank you, Madam Chair and also Ranking Member Deutch.
    I would just briefly say that with the ICC application, 
something that has happened in the last several months that 
deeply concerns me is the increase in an effort in the 
international community to isolate and stigmatize Israel. I am 
deeply concerned that this latest effort is merely yet another 
attempt in this long-going campaign, especially by those 
countries, not the United States, but other countries in Europe 
and elsewhere that are otherwise allies of the U.S. So I am 
very interested in what we can do as a country to stand up for 
Israel, to stand up for human rights of all people, and to 
ensure that the ICC isn't corrupted and used and abused in a 
way that is really just about bashing Israel. Thank you.
    Ms. Ros-Lehtinen. Thank you very much and welcome to our 
subcommittee.
    And I apologize to Ms. Meng for skipping her over, but I 
will get to you.
    Curt Clawson of Florida is recognized.
    Mr. Clawson. Thank you for coming today and sharing your 
time and expertise, and I really appreciate it, and I am 
looking forward to what you have to say about security in the 
region.
    You know, as I read about this process, it feels unclear to 
me that we are going to be more secure tomorrow than we are 
today on either side of the conflict, and that really is the 
bottom line. If more people die because of this process, then 
what are we doing? So I am really interested to hear what you 
all have to say about everybody's security. There is just too 
much dying. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Meng of New York is recognized.
    Ms. Meng. Thank you, Madam Chair and Ranking Member Deutch 
for calling this hearing and our distinguished witnesses for 
joining us today. In pursuing legal proceedings against Israel 
in the International Criminal Court, the Palestinian Authority 
could do irreparable damage to the peace process and escalate 
the conflict. Furthermore, I am concerned that the PA's actions 
here contravene both international law and the spirit of 
existing agreements between Israel and the PA. We must be clear 
that joining the ICC is not a viable approach for the 
Palestinians. I look forward to today's testimony, particularly 
that relating to the legal questions here. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Meng.
    Mr. Wilson of South Carolina is recognized.
    Mr. Wilson. Thank you, Chairwoman Ros-Lehtinen and Ranking 
Member Deutch, for hosting this important hearing, and thanks 
to each of our panelists for being here today.
    Time and time again the world has seen over 3,000 terrorist 
rocket attacks which originate from Palestinian-backed terror 
organization Hamas. As we discuss Palestine's desire to become 
more integrated within the international community, it should 
stop terrorism against Israeli women and children. In an effort 
to bring many of these actions into light, the Web site, 
Palestinian Media Watch, palwatch.org, does an excellent job of 
highlighting instances of aggression toward Israel which 
otherwise may not be told. I support this Web site in its 
mission.
    The U.S. must stand firmly with Israel, our strongest ally 
in the region. And I fully support Prime Minister Benjamin 
Netanyahu as he seeks to promote peace in the region.
    Ms. Ros-Lehtinen. Thank you very much.
    And with that, I would like to--I don't think Ms. Frankel 
would like to make a statement, so we will go to Mr. Weber of 
Texas.
    Mr. Weber. Thank you, Madam Chair. I have been following 
those events as well, and the gentleman from South Carolina is 
correct. It seems that the majority, there has been a lot of 
rockets aimed at Israel. They seem to be going that direction. 
So those who are crying foul, may indeed be acting the most 
foul, if I can use that play on words. So I am looking forward 
to this discussion and see that we do what we can to protect 
our ally.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Weber.
    And we are proud to introduce a new member of our 
subcommittee, Mr. Zeldin of New York.
    Welcome.
    Mr. Zeldin. Thank you, Madam Chairwoman and Ranking Member 
Deutch, my mother's Congressman, Congressman Deutch. I thank 
you for holding this hearing today.
    And my background before going into elected office was in 
the military, and first I was a military intelligence officer 
and then a JAG officer. And in our preparations, whether it is 
Iraq or Afghanistan or elsewhere, we focus on rules of law, 
rules of engagement, law of war. We are used to a conventional 
fight in the past, and we have a doctrine that should be 
respected when there is war. And the fact that you have Hamas 
living amongst neighbors, women and children, when you have an 
important, proportionate response, collateral damage ends up 
increasing when the threat lives with women and children. And I 
think that one of the things that we really need to tackle in 
the dialogue and the conflict between Israel and the 
conversation with the Palestinian Authority is the unnecessary 
collateral damage that is taking place. And the Palestinian 
Authority has a responsibility to route that out from within 
their ranks, and Israel has a responsibility as well. All of us 
do, whenever we are engaged in any type of a conflict.
    But the amount of collateral damage and civilian deaths 
taking place across the borders from Israel is a responsibility 
of the Palestinian Authority to do more for Hamas not to live 
amongst the ranks of the women and children.
    I thank you again, Chairwoman, for doing this hearing.
    Ms. Ros-Lehtinen. Thank you. Welcome.
    And Mr. Connolly of Virginia is recognized.
    Mr. Connolly. I thank the chair. I am glad to have this 
panel and this hearing. I just want to say I probably am 
somewhat demure from some of my colleagues with respect to the 
necessity of continuing to provide economic development 
assistance to the Palestinian Authority.
    But having said that, Congress did put conditions on that 
aid last year, and those conditions have to do with the whole 
question of the ICC. And I know the State Department is 
reviewing as we speak whether that provision is now triggered. 
So hopefully we can persuade the Palestinian Authority that 
unilateral action is not in its best interest, nor ours, and 
that as we move forward, it has to be in the context of a 
broader peace negotiation. And I would hope that at this 
hearing we could illuminate that issue and have more clarity as 
to what the U.S. policy should be moving forward.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    And now I am pleased to present our panelists. First, I am 
so happy to welcome back Dr. Jonathan Schanzer, who is the vice 
president of research for the Foundation for Defense of 
Democracy. He has written extensively on the Middle East and 
has chronicled the internal struggle between the PA and Fatah.
    Thank you.
    Then we welcome Professor Eugene Kontorovich, who is a 
Professor at Northwestern University School of Law. He has 
published extensively on the ICC, its jurisdiction, and the 
court's legal basis. The professor has been cited on leading 
international law cases around the world, and he is a regular 
contributor to the Washington Post.
    Welcome, Professor.
    And, third, we welcome back Ms. Danielle Pletka. She is the 
senior vice president for foreign and defense policy studies at 
the American Institute. She served for 10 years as a senior 
professional staff member for the Near East and South Asia 
Subcommittee on the Senate Foreign Relations Committee.
    I don't know. Mr. Connolly, perhaps you served with her. 
Were you a Senate staffer?
    Mr. Connolly. I probably did.
    Ms. Ros-Lehtinen. Might have.
    And, finally, we welcome back David Makovsky. He is a 
distinguished fellow and director of the Project on the Middle 
East Peace Process at the Washington Institute. David is the 
author of numerous research pieces on the Arab-Israel conflict 
and has just concluded a 10-month stint as Senior Advisor to 
Secretary of State Kerry's Israeli-Palestine Peace Talks Team.
    Welcome all of the panelists. Your written statements will 
be made a part of the record, and we will start with you, sir.

   STATEMENT OF JONATHAN SCHANZER, PH.D., VICE PRESIDENT FOR 
        RESEARCH, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Chairman Ros-Lehtinen, Ranking Member Deutch, 
members of the committee. On behalf of FDD, thank you for 
inviting me to testify today.
    After a decade of lobbying the international community for 
recognition at the U.N., the Palestinians are now poised to 
leverage their gains and wage lawfare at the International 
Criminal Court. The goal for Palestinian President Mahmoud 
Abbas has been the same since he launched his diplomatic 
campaign in 2005, and that is to force the Israelis to 
relinquish territory or other meaningful concessions and to do 
so outside the scope of bilateral negotiations.
    The dangers of this campaign cannot be understated. For 
one, these efforts are not likely to resolve the conflict 
peacefully. Rather, they will keep the embers of conflict 
glowing. More importantly, while communication and cooperation 
still exist between Ramallah and Washington, it is clear that 
Abbas and his lieutenants no longer feel beholden to the United 
States despite the hundreds of millions of dollars in 
assistance we provide every year.
    Madam Chairman, threats to cut assistance to the 
Palestinian Authority have not had the desired impact in recent 
years. The reason for this is simple. Washington is dependent 
upon the PA for continued security cooperation with Israel. 
Abbas knows this, and this is why he feels comfortable testing 
the patience of legislators and the President.
    There are, however, steps that we can take to reassert 
American leverage in the West Bank, protect American interests, 
empower new moderate Palestinian leadership, and safeguard 
Israeli security concerns.
    First, Congress should strongly consider establishing a 
lawfare office similar to that established by Israel. Such an 
office can help the U.S. Government battle lawfare against us 
in both defense of U.S. officials and perhaps even our allies 
as well. Along these lines, we can leverage our Article 98 
agreements with foreign governments. The U.S. Government 
already has about 100 of these agreements which ensure that 
U.S. persons are not surrendered to the jurisdiction of the 
ICC. Congress should ensure that the U.S. enters into as many 
of these agreements as possible and perhaps even modify them to 
include its key allies, such as Israel.
    In the meantime, we have to deter the Palestinians from 
their current course. One way to do that is to work with our 
intelligence community to declassify information about 
Palestine terrorism, illicit activity, and human rights abuses 
dating back to November 29, 2012, when the U.N. General 
Assembly recognized Palestine as a non-member observer state. 
This would send a message to the Palestine leadership that it 
is just as susceptible, if not more so, to ICC prosecution.
    Congress must also take steps to weaken the PLO. It is the 
PLO that is pursuing Israel at the ICC, and it is the PLO that 
is waging the diplomatic campaign at the U.N. Moreover, the PLO 
still has terrorist groups under its umbrella. Its leaders are 
unelected. Its decisionmaking is opaque, and its finances are 
obscured from the public eye. Its very existence enables a 
dysfunctional system. At any given time, we don't know whether 
it is the PLO, the Fatah faction, or the PA that is speaking in 
the Palestinians' in the name. If the goal is to hold the 
Palestinian leadership responsible for its actions, it is time 
to empower the Palestinian Government we seek to engage and to 
make the PLO obsolete. To that end we must shut down the PLO 
Embassy in Washington and to take steps to weaken the 
organization worldwide.
    In addition, we should make plans for Mahmoud Abbas to go. 
He is a huge part of the problem. Once considered a reformer, 
he is now 10 years into a 5-year Presidential term. He is the 
head of the Fatah faction and the PLO. So long as he maintains 
a stranglehold over the Palestinian political system, the 
Palestinians will be taken in by gimmicks like the U.N. 
recognition campaign and the ICC. We have to begin to plan for 
new elections.
    However, we cannot only focus on the West Bank political 
structures. The Hamas-Fatah split remains a challenge that will 
encumber both regional peace and Palestinian reform. Hamas must 
be removed from the Gaza Strip and from the political process 
if change is to take root.
    Finally, Washington must return to its role as arbiter of 
the peace process. I don't believe that peace between the 
current leaders is likely, nor do I believe that this 
administration has earned the trust of either side. However, 
Washington cannot abdicate its role as the honest broker. Once 
we return to that role, we will have an opportunity to call for 
a halt to all unilateral action and guide this conflict to a 
more constructive dynamic.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    Ms. Ros-Lehtinen. Thank you so much.
    [The prepared statement of Mr. Schanzer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                      ----------                              

    Ms. Ros-Lehtinen. Professor, you are recognized. Thank you.

    STATEMENT OF MR. EUGENE KONTOROVICH, PROFESSOR OF LAW, 
             NORTHWESTERN UNIVERSITY SCHOOL OF LAW

    Mr. Kontorovich. Madam Chairwoman, Ranking Member Deutch, 
honorable members of the committee, thank you for inviting me 
to testify. In my testimony today, I am going to focus on three 
issues: Why the Palestinian Authority's effort to join the 
International Criminal Court is dangerous, not just for Israel 
but equally for the United States; why the Court is likely to 
be biased toward Israel; and, finally, remedial options under 
United States law.
    The Palestinian campaign in the ICC threatens not just 
Israel but U.S. diplomatic and security interests as well. 
Crucially, America like Israel, is not a member state of the 
International Criminal Court and has chosen to not subject 
itself to the court's jurisdiction. Thus America and Israel 
find themselves in the same boat in terms of wanting to avoid 
precedents that would allow other entities to forcibly subject 
them to ICC process.
    There are five dangerous precedents that this could set. 
First of all, the Palestinians are seeking to establish a 
precedent where a majority vote of the General Assembly is all 
it takes to secure jurisdiction over a non-member state. That 
is an extremely dangerous precedent for the United States. The 
United States in creating the United Nations chose not to give 
any binding powers to the General Assembly, but rather to 
screen all of those through the Security Council. The notion 
that a simple majority vote of the General Assembly could 
create jurisdiction over the U.S. servicemen is a very 
dangerous one. One could imagine Boko Haram or ISIS petitioning 
the General Assembly and, on a good day, getting a majority 
vote to exercise jurisdiction over U.S. troops.
    All of the particular legal issues that the Palestinians 
are seeking to establish and need to win on at the ICC are ones 
that would be very dangerous for the United States. I would 
like to remind the subcommittee that the United States is 
currently subject to a preliminary investigation about the role 
of U.S. troops in the treatment of detainees in Afghanistan. It 
has been thought there are some major principles that insulate 
Western democracies like the United States, the notions of 
complementarity and gravity.
    Complementarity means that if a country conducts its own 
investigations or has a well-functioning legal system that 
investigates its troops, it does not have to worry about the 
ICC stepping in. Now the question is what level of abstraction 
you apply complementarity on. So while the United States is a 
well-functioning democracy, if it chooses not to investigate 
every particular incident, if it chooses not to investigate the 
roles of senior civilian leaders in alleged incidents, and the 
ICC chooses to step in, this would be something the United 
States would be very uncomfortable with. Yet nonetheless, that 
is exactly what the Palestinians are trying to establish vis-
aa-vis Israel. Israel also has a well-functioning criminal 
justice system. If the ICC is to take any steps forward, it 
would require defining complementarity at such a low level that 
the United States also would not be insulated by this 
principle.
    Then there is the principle of gravity, that the ICC is 
reserved for the worst of the worst international crimes, mass 
atrocities, which its charter refers to. As a result, isolated 
or lower level crimes, the ICC can't deal with because in a 
world of millions killed in conflicts around the world, 
obviously the ICC can't deal with everything and needs to 
prioritize. The United States and other Western democracies 
have been shielded by this principle. This would be a principle 
that prevents an ICC investigation of alleged abuses in 
Afghanistan.
    Ms. Ros-Lehtinen. If the gentleman would suspend, I am 
going to kindly remind the audience for one last time, that if 
you cause a disruption, you will be removed from the hearing 
room. So when each witness finishes his or her statement, if 
you would remain quiet and let the order take place. If not, 
the Capitol Police are here, and you will be escorted out.
    Please continue.
    Mr. Kontorovich. The Palestinians at the ICC wish to 
establish a precedent that the mere building and buying of 
homes in eastern Jerusalem is a mass atrocity. If gravity is 
defined at such a level, any actions by U.S. forces would 
certainly meet that standard, and all of the limiting 
principles of ICC jurisdiction that had been promised to 
Western states as things that would insulate them would be 
defined essentially out of the ICC charter.
    Finally, I need to mention the Monetary Gold principle. The 
monetary gold principle is a principle of international law 
that an International Court cannot decide the rights or 
privileges or duties of a country that has not accepted 
jurisdiction. The Palestinians are seeking to essentially draw 
Israel's borders through the International Court. Even the 
International Court of Justice, which is actually in the 
business of border disputes, can only do so with the consent of 
all the involved countries. The precedent that an International 
Court can decide on national borders and any other issue 
without the consent of the countries involved would threaten 
the United States extraordinarily, especially as a country that 
has opted out of the jurisdiction of the International Criminal 
Court.
    Naturally, this would also hurt American diplomacy, as the 
Palestinian effort violates key provisions of the Oslo Accords 
and represents a wholesale repudiation of the principles not 
just of the Oslo Accords but also the Bush Letter, which was 
endorsed by Congress, not to mention Security Council 
Resolution 242, the League of Nations Mandate, and pretty much 
every diplomatic instrument in the conflict, which all call for 
negotiations and negotiated border resolutions.
    Why is the ICC likely to be biased against Israel? Well, 
because the prosecutor has effectively abrogated her 
independence and become a spokesperson of the General Assembly. 
The prosecutor's recent decisions about Gaza being occupied 
territory and Palestine being a state, which also happened to 
be mutually contradictory, were adopted by simply repeating 
United Nations' resolutions, thus becoming an organ of a 
political body.
    Ms. Ros-Lehtinen. Thank you very much, Professor.
    [The prepared statement of Mr. Kontorovich follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                   ----------                              

    Ms. Ros-Lehtinen. Ms. Pletka is recognized.

   STATEMENT OF MS. DANIELLE PLETKA, SENIOR VICE PRESIDENT, 
    FOREIGN AND DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE 
                           INSTITUTE

    Ms. Pletka. Thank you, Madam Chairwoman. It is a pleasure 
to be back.
    Ms. Ros-Lehtinen. A little bit closer.
    Ms. Pletka. It is harder, with the high heels and the 
dress, sliding your way in. Okay.
    Can you hear me now?
    You know, I have to say just as an aside, I am always 
struck by people who want to come and protest about Israel, and 
yet when I drive by the Syrian Embassy every day, a government 
that has been responsible for the death of hundreds of 
thousands of people, nobody seems to be standing outside. It is 
kind of a shame.
    Thank you, again, for inviting me to speak today. I am not 
a lawyer. So I am not going to speak to the legal issues. I do 
think that it is important, however, to underscore the points 
that everybody has addressed here today, which are U.S. laws 
relative to the steps that the Palestinian Authority has taken 
in recent months.
    P.L. 113, which passed last year, 113-76, codifies 
restrictions on aid to the Palestinians, and the letter of the 
law is quite specific. It says, Limitations, none of the funds 
appropriated under the heading ``economic support funds'' in 
this act may be available for assistance to the Palestinian 
Authority if, after the date of enactment, the Palestinians 
obtain the same standing as member states or full membership as 
a state in the U.N. or any specialized agency thereof outside 
an agreement negotiated between Israel the Palestinians.
    I think that has happened. The Palestinians initiate an 
International Criminal Court judicially authorized 
investigation or actively support such an investigation that 
subjects Israeli nationals to an investigation for alleged 
crimes against Palestinians.
    I think it is important to look at the letter of the law as 
the State Department ``decides'' whether in fact the law has 
been violated. There is not much room for decision-making here 
it seems to me.
    The very conditions you have laid out on the question of 
standing within the U.N. and member agencies, as well as claims 
before the ICC, have in fact, been violated. And, legally, aid 
to the Palestinians should be cut off.
    The U.S. provides about $400 million a year, a little less 
in the current request, in annual economic support funds and 
other funds to the West Bank and Gaza. Cutting off that aid 
will inevitably harm some Palestinians.
    But those who desire self-governance and self-determination 
for the Palestinian people also have to accept the notion that 
the Palestinian people need to live with the choices that have 
been made by their leaders.
    There are few who believe that the ICC case or Palestinian 
efforts within the U.N. will bring about the creation of a 
Palestine state.
    But don't listen to me. Let me now quote Ambassador Dennis 
Ross, Dave's colleague, who spoke to this very issue:

          ``Since 2000<greek-l>,'' Dennis wrote, deg. 
        <greek-l>`` deg.there have been three serious 
        negotiations that culminated in offers to resolve the 
        Israeli-Palestinian conflict. In each case, a proposal 
        on all the core issues was made to Palestinian leaders, 
        and the answer was either no or no response. 
        Palestinian political culture is rooted in a narrative 
        of injustice. Compromise is portrayed as betrayal, and 
        negotiations, which are by definition about mutual 
        concessions, will inevitably force any Palestinian 
        leader to challenge his people by making a politically 
        costly decision. But going to the United Nations does 
        no such thing. It puts pressure on Israel and requires 
        nothing of the Palestinians.''

    In short, the U.N. and the ICC aren't about solving 
problems. They are about an unwillingness to negotiate and 
compromise for a true and lasting peace.
    But going to the ICC is qualitatively different than going 
to the U.N.--and you didn't touch on this, but I think it is 
really an important distinction. At the U.N., the Palestinians 
and their supporters can get all the nonbinding resolutions 
that they want at the General Assembly, but at the Security 
Council, they have always been stymied by the U.S. veto. The 
ICC, however, resembles the Security Council in its ability to 
provide meaningful support. But by design, neither the U.S. nor 
any other nation has the ability to block ICC action.
    What Palestinian leaders ultimately want from the ICC is 
criminal indictment, not just of individual members of the IDF 
and Israeli Intelligence Services but, most importantly, of the 
national leadership of Israel. Their aim is to harass them as 
individuals, to delegitimize Israel by establishing as a fact 
that many of its top leaders have in fact, after this happens, 
in theory been indicted for war crimes.
    Knowing the U.S. can't veto ICC indictments, they are 
seeking them as an illicit form of pressure against their 
ostensible negotiating partners.
    I want to address this question of whether, in fact, this 
is a double-edged sword for the Palestinians. As some have 
suggested, maybe they should be subjected to questions before 
the ICC. But that is really not relevant to them, and it is 
important to understand that. Look no further than the ICC-
indicted leader of Sudan, Omar Bashir, who is welcomed at Arab 
League summits and does not fear to travel in the Arab world. 
This demonstrates that within their region, Palestinian leaders 
have nothing to fear from ICC indictments. But Israel's region 
is the West. And, within the West, such indictments are taken 
seriously and will be enforced to the degree possible. This is 
just another example of Palestinians taking advantage of 
Western ideals and institutions, not to advance them but to 
weaken and delegitimize them within their region.
    Ms. Ros-Lehtinen. Thank you so much.
    [The prepared statement of Ms. Pletka follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
                   ----------                              

    Ms. Ros-Lehtinen. Mr. Makovsky.

STATEMENT OF MR. DAVID MAKOVSKY, ZIEGLER DISTINGUISHED FELLOW, 
         THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Makovsky. Thank you very much, Madam Chairwoman Ros-
Lehtinen, Ranking Member Deutch, members of the committee. 
Thank you for inviting me here today.
    First, it is worth focusing on what is at stake for the 
Palestinians and for the ICC itself. Clearly, the Palestinian 
move for membership at the ICC is deepening the chasm between 
Israelis and Palestinians. The move is part of a Palestinian 
two-prong international strategy: Involve the U.N. Security 
Council; and go to the ICC.
    For now, they have given up on direct talks with Israel. Of 
course, this is wrong. Direct talks are the only way to solve 
the problem and to promote peace. For the ICC, they also seem 
to be veering off course. For its part, the original ICC 
purpose has been to deal with mass atrocities and not serve as 
another politicized U.N. agency. If the ICC wants to be taken 
seriously, it should remain true to its origins and avoid 
politicization.
    So what has just happened? When PA leader Mahmud Abbas 
signed the Rome Statute, he allowed for authority retroactive 
to June 13, just hours after three Israeli youths were 
kidnapped and subsequently murdered in the West Bank, to permit 
an investigation into last summer's Gaza war. ICC Prosecutor 
Fatou Bensouda announced a few weeks later that she would 
launch a preliminary examination without first determining if 
the PA is eligible to raise such a claim. Only Bensouda could 
determine if and when the preliminary examination ends, and 
transitions to a full-fledged investigation.
    While the ICC previously inserted itself in the Congo war, 
there there were over 5 million deaths. In Gaza, the death toll 
was approximately 2,000 Palestinians, half of which Israel 
believes to be terrorists, and 65 Israeli soldiers.
    The effect of this Palestinian approach is further 
deterioration in the relationship between Prime Minister 
Benjamin Netanyahu and President Abbas. In protest of the PA 
strategy, Israel is withholding $127 million each month in 
Palestinian tax revenue, which is unlikely to be released until 
a new Israeli Government is formed, perhaps in late May. The 
Israeli move, it should point out, given that it is a monthly 
move, is financially more consequential than anything the 
United States is undertaking.
    Historically, the ICC investigations could take years. And 
so far, only two Congolese warlords have been convicted.
    Israel's situation, needless to say, is dramatically 
different. It is a democracy. The ICC has no jurisdiction where 
there is a functioning judiciary. Following the Gaza war, 
Israel is in the process of indicting four Israeli soldiers for 
potential abuses. And the IDF has invited all NGOs--all--to 
come forward with evidence. In short, Israel's democratic 
judicial process negates the need for the ICC to step in. The 
consequences against Israel are not just going to be felt down 
the road. The mere investigation of Israel by the ICC is 
designed to put Israel under a cloud and to give a boost to the 
boycott, divest, and sanction--BDS--movement. Throughout the 
Gaza war Israel----
    Ms. Ros-Lehtinen. If the gentleman would suspend, the Chair 
notes that there is a disturbance of committee proceedings. The 
committee will stand in recess until the Capitol Police can 
remove these individuals.
    [Recess.]
    Ms. Ros-Lehtinen. Thank you, Mr. Makovsky. Give us 1 minute 
to close the doors, and then you can begin your testimony. 
Thank you. You may begin, sir.
    Mr. Makovsky. Throughout the Gaza war, Israel and the PA 
continued their security cooperation in the West Bank. There is 
impressive professionalism in the Palestinian Security 
Services, thanks in part to training by the U.S. Security 
Coordinator and the high-level cooperation with their Israel 
counterparts. Media reports have suggested that Israel was able 
to divert troops from the West Bank to Gaza this summer because 
it knew that PA security services would maintain order. This is 
the bigger picture today.
    Both have an interest in the not allowing the West Bank to 
return to chaos or to Hamas. Most Israelis do not want security 
cooperation to collapse. Israel would have to spend a lot of 
money and manpower that they do not have to make up for the 
loss of security cooperation, and this is especially dangerous 
at a time that they must be vigilant on other fronts against 
Hezbollah in the north and Hamas in Gaza. A lack of security 
cooperation would be devastating to the PA as well.
    Abbas said this summer, <greek-l>quote,  deg.``We don't 
want to go back to the chaos and destruction, as we did we did 
in the second intifada. We will not go back to an uprising that 
will destroy us.''
    This does not mean there shouldn't be punitive measures. 
The key is to ask if the penalty produces the result you want 
or if it is counterproductive. Withholding funding will lead to 
the collapse of the security cooperation and ultimately the PA, 
creating a vacuum that could be filled by radicalism, 
especially Hamas.
    There should be a focus, I would argue also, on the ICC 
itself. The ICC has the authority to decide whether to move 
forward and go from a preliminary examination to a full 
investigation.
    What can be done? First, the ICC should make it clear that 
it will not insert itself when the parties are engaged in 
conflict resolution. It will put this issue aside.
    Second, the U.S. should proclaim clearly that we do not 
accept the PA move and urge the ICC to terminate its inquiry 
and encourage all of our allies to do the same, as Canada did.
    Third, the Congress should bolster the Armed Services 
Protection Act of to 2002, which makes clear that our 
servicemen and allies, including Israel, will be protected from 
a politicized body.
    In conclusion, the Palestinians should recognize the 
signing of the Rome Statute is unhelpful to their interests. As 
long as there is hope of conflict resolution, the ICC should 
avoid inserting itself. The international community should do 
everything it can to bring Israelis and Palestinians together 
to solve their differences and not deepen the divide between 
these two peoples. I look forward to the discussion.
    Ms. Ros-Lehtinen. Thank you very much.
    [The prepared statement of Mr. Makovsky follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                      ----------                              

    Ms. Ros-Lehtinen. Excellent testimony.
    And I thank our Capitol Police for helping us to restore 
order so that we can hear our panelists calmly.
    I will begin with you, Professor. You have outlined several 
issues of jurisdiction and other legal problems with the ICC 
that should have precluded the ICC from accepting this non-
existent state of Palestine to its membership. As we all know, 
the prosecutor has already launched a preliminary examination. 
Could you briefly--briefly--walk us through the steps that must 
be taken from start to finish for an investigation to take 
place? Does an investigation have to be initiated by the 
Palestinians against Israel? Can it be initiated by anyone on 
behalf of the Palestinians? And also the Palestinians attached 
a letter asking for an investigation into last summer's Gaza 
conflict when they signed the Rome Statute. Is it a reasonable 
reading of the legislation to say that when the Palestinians 
submitted this letter, they initiated the investigation because 
the preliminary examination is the start of the process and 
that cutting off the PA's funds would be consistent with the 
intent of the legislation? Also the administration's diplomatic 
efforts have clearly not been effective in preventing Abu 
Mazen's actions at the U.N. and at the ICC. So I ask our 
panelists, is there a better way that we can be leveraging our 
assistance, perhaps not to the Palestinians themselves, but to 
the international allies of the Palestinians or at the U.N.? 
Professor, we will begin with you about what kicks in the----
    Mr. Kontorovich. So the Palestinians submitted instruments 
of accession to the Rome Statute, joining the Rome Statute, 
which is purely prospective. They also submitted with that a 
12(3) declaration. A 12(3) declaration is a mechanism to give 
the court retroactive jurisdiction going back over particular 
incidents, and they did this back to the Gaza war, after the 
three boys were kidnapped and killed.
    When a country joins the ICC, any country can demand, can 
refer a situation to the prosecutor. It doesn't have to be one 
of the countries involved. Any other member country can do so. 
Now only the prosecutor actually does the investigations, but 
the process of kicking that off begins with, for example, 
countries referring such a situation.
    In the case of the 12(3) declaration, the 12(3) declaration 
does not require any subsequent follow up or referral by 
countries. So it does seem that, within the meaning of the 
existing legislation, the 12(3) declaration, which has resulted 
in the initial preliminary examination, is the thing that 
initiated the process.
    Now, the current legislation, existing legislation, speaks 
of the Palestinians initiating a judicially authorized 
investigation. So there is two parts of that to parse, 
initiating and judicially authorized. Now clearly the steps 
they have taken can count as initiating. Obviously, the 
Palestinians themselves don't work at the ICC, so they can't be 
the ones to actually sign off on the investigation, and if it 
actually means opening an investigation at the ICC, it would be 
reading the legislation to be meaningless if it would require 
the Palestinians doing that, since they can't do that because 
they are not part of the ICC.
    The question of a judicially authorized investigation is a 
separate question because after the prosecutor completes her 
preliminary examination, which involves questions like 
jurisdiction, just a very basic question--is there anything to 
think about here--she can then go to the Pre-Trial Chamber, a 
body of the ICC, and ask them for authorization to open an 
investigation. The statute could be read to say that is what 
actually triggers the aid cutoff because that is what a 
judicially authorized investigation is. But it has already been 
initiated. It is consistent with the intent of the legislation 
to say that the first step of this process is what is going to 
initiate it, and that step has, indeed, been taken.
    However, there are other steps that can be taken about 
funding under existing legislation, if I may briefly add. 
Existing statutes provide no funds authorized to be 
appropriated under this or any act shall be available for the 
United Nations or any specialized agency which accords the PLO 
the same standing as member states. Now it is important to 
point out that this statute, unlike other ones, does not speak 
of membership. It doesn't say if the U.N. gives membership to 
the PLO or to the Palestinians, rather if it gives them 
standing otherwise enjoyed by member states.
    Ms. Ros-Lehtinen. I am going to just cut you off there a 
second just because I am--I know you didn't finish your 
thought, but what about leveraging our assistance. What is the 
panelists' view of how we should do that, if we should change 
or not?
    Mr. Schanzer. Madam Chairman, I would say that there are a 
few areas that I think are worth visiting in terms of the funds 
that we provide the PA. One is we should, as much as the 
foreign ministry within the PA pursues these activities at the 
ICC and at the U.N., we should make sure that whatever 
allocations are cut off immediately. The same I would say would 
go for the Presidential office. There is a slush fund that 
Mahmud Abbas uses to pursue these aims, and I think we could 
earmark those funds and cut them. Any area of the PA that is 
influenced by the PLO decisionmaking also we should cut off. I 
mean, basically, what we are talking about is conditioning our 
aid, which is something that we have not done. We basically 
need to demand good governance on the part of the Palestinian 
Authority.
    The Palestinian Authority itself, though, I should note, is 
not the problem. They are basically a bureaucratic functionary 
government that is making sure that sewage and electricity and 
water flows. We are really concerned here with the 
decisionmaking of cronies of Mahmud Abbas within the PLO and 
the Fatah faction. They should be the target of any subsequent 
investigation.
    Ms. Ros-Lehtinen. Thank you so much.
    And just 1 minute, Ms. Pletka and Mr. Makovsky.
    Ms. Pletka. There is no question we need to be careful not 
to cut off our nose to spite our faces in terms of aid to the 
Palestinians, and there are important parts of that assistance 
that go to the Palestinian people and that don't go to security 
assistance that again would cause more problems. I want to 
highlight something I left out from my testimony very fast.
    Ms. Ros-Lehtinen. If you could make it quick because we 
messed up on the clock so I am probably out of time, but 30 
seconds.
    Ms. Pletka. I am going to read you half a sentence from 
what AID reported to CRS as what a lot of the aid is used for: 
It goes to the PA toward paying off its commercial debt. Direct 
budget support will be used in the same manner as previous 
transfers to service debt to commercial suppliers and 
commercial banks.
    Do you realize that aid to the Palestinians is going to pay 
off their commercial debts, that they are making all those 
choices on their own? That can't happen.
    Ms. Ros-Lehtinen. Point taken. Thank you so much.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    I just want to follow up, Mr. Makovsky, with Ms. Pletka's 
last comment about aid and what might happen and just ask you 
directly. Walk us through what would happen if the PA were to 
run out of money, if they were unable to pay salaries or were 
to collapse. What impact would that have on the Palestinians? 
What impact would that have on Israel?
    Mr. Makovsky. Thank you, Congressman. It is a good 
question. I think if they don't pay salaries, then we are going 
to see a cutoff in the security cooperation. I think it is a 
matter of time. There could be a stopgap move between now and 
the end of May. Maybe the Europeans and the Arabs would do more 
until then, but this is a major move. Israel would, I think, 
have to pay billions of shekels, a lot of money in terms of 
manpower to step in in terms of order, in terms of all to 
assume its civilian responsibilities. It is not something 
Israel relishes to do, and I can tell you just returning now 
from Israel and talking to the professionals involved in this 
issue, this is not something they want. So I think it is a big 
deal.
    Just also to respond to Madam Chairwoman's point about the 
aid and where it goes and what Danny said, yes, right now a lot 
of the money basically goes to the Israeli electric company to 
pay debts that has been incurred in Gaza and the West Bank for 
heating. Basically, in the last few years, of the $440 million, 
$70 million goes to security assistance. The next tranche is in 
November. That is still a while. The 370 is broken into two 
parts, $170 million for USAID project assistance, and 200 in 
direct budgetary assistance to the PA. But, frankly, given a 
lot of problems in the last 2 years, my understanding is a lot 
of that does not go to the PA. It doesn't go to salaries. And, 
frankly, it has gone to more humanitarian projects. So that is 
the flexibility of the Congress of that 370 to kind of fashion 
it the way it wants. But Danielle is right, that a lot of the 
money right now basically goes to the Israel companies where 
there is heating bills that are owed in the West Bank and Gaza.
    Mr. Deutch. I want to just go back to the bigger picture of 
the decision to go to the ICC, which strikes me as really just 
a diversion. It is a diversion from problems within the PA, and 
the bigger issue is the fact that there is this effort to go to 
the ICC at the same moment when the PA is still trying to sort 
out what role Hamas is to play with them.
    Now, we have had hearings on that in the past. I would love 
someone on the panel to speak to where things stand from your 
perspective with respect to the relationship between the PA and 
Hamas, the role that Hamas continues to play, the reports that 
Hamas has essentially thrown up its hands and said that its up 
to the PA now to decide what to do with Gaza. Where are those 
relations, and how is it that we are ultimately able to go 
forward at all until we sort out the fact that there is no 
place for a terrorist group within the Palestinian Government?
    Mr. Makovsky. Could I take a very quick brief, and then 
yield to my colleagues, because just returning, this has been a 
big issue for me on my trip when I was over there. What is 
clear is you have a standoff between the PA and Hamas. 
Basically, the idea of the summer was to get the PA back into 
Gaza, but the PA doesn't want to go into Gaza because Hamas 
still has guns in Gaza. As one Palestinian said to me, David, 
they have got three roles for us, three jobs for us, Hamas. 
They want us to be their doormen to let them in and out of 
Gaza. They want us to be their ATM machine. And they want us to 
be their building contractors. But everything else is them, and 
they have got the guns.
    You have got Sisi of Egypt, the President of Egypt, who 
wants the PA drastically to come back into--because he just 
called the Izz ad-Din al-Qassam a terrorist organization, the 
first time that I am aware of that any Arab country has called 
the Hamas militant wing a terrorist organization. I think it is 
a welcome development. But the point is you have a standoff. 
The Egyptians want the PA to do more, and the PA doesn't want 
to go in there because it thinks that it is a booby trap 
situation in Gaza, and they will never really be able to assert 
control. So they want to wide Hamas out.
    In the meantime, nothing is moving. One apparently senior 
Hamas person said to someone, Hey, if there is a siege going 
on, I have to admit we can't blame the Israelis. It is the PA 
that doesn't want to come in. But from their perspective, it is 
a security threat, and so, in the meantime, we just have a 
standoff.
    Mr. Deutch. You say they want to wait it out.
    Dr. Schanzer, what does that mean for U.S. policy? They 
want to wait it out, and yet there is still an existing 
relationship that we have take into account, don't we?
    Mr. Schanzer. Well, we absolutely do. The way this is 
structured is Hamas is trying to get the PA to make the Gaza 
strip more Halal, if you will, for international donors. You 
put sort of the face of the PA on a Hamas-controlled territory. 
That would allow for the flow of goods and services. The PA has 
not given up on this. Abbas truly would like to bring Gaza back 
under his control. This is still an aim of his, and as long as 
this continues, it is going to create a very problematic 
dynamic, both in terms of ICC in terms of recognition here, 
aid, and I don't think it has been addressed properly yet.
    Mr. Deutch. Thank you. I yield back.
    Mr. DeSantis. Thank you, Madam Chairman.
    The Hamas-Fatah, you have seen terror attacks, suicide 
attacks, rocket attacks, human shields, so they want to go to 
the ICC. Obviously, they are in a situation where they would be 
liable, and yet, Ms. Pletka, you said that it is not really 
going to be much of a double-edged sword. Can you elaborate on, 
you know, why would some Arabs want to go to these western 
institutions and think that that could give them an advantage, 
given that we could easily identify examples in which they 
would be liable?
    Ms. Pletka. Well, I think this goes actually to the 
question that Mr. Deutch asked as well, which is, you know, why 
go to the ICC right now? It is just a distraction. And I think 
for a lot of the countries that seek to internationalize their 
claims, not just the Palestinians, but others, it is an option 
for them where they can have their cake and eat it too. They 
are not subject to the penalties that come along with these 
because they are not actually part of a system of rule of law. 
And if you don't have rule of law, then of course, the 
jurisdiction of the ICC or of any other international 
organization is completely irrelevant.
    Now, we haven't signed onto it, but this really is 
something that, you know, this is the reason that the American 
Service-Members' Protection Act was written. It is because 
these self-executing international organizations that are not 
subject to the veto of any particular country are increasingly 
popular with groups like the Palestinians but also others--the 
Cubans, the Venezuelans, the Irans, sadly, the Russians, and 
others who seek to use them. And frankly, most of them don't 
give a damn about the Palestinians. They care about going after 
us. That is why it is much more of a distraction.
    As for Hamas, they don't care. Look, they just found a new 
headquarters. We were just talking about this. Where is their 
headquarters? It is in a NATO-allied country. Is that okay? 
Apparently. Apparently, yes, it is okay. You know, if it 
doesn't matter to them and it doesn't matter to us, guess what, 
it doesn't matter to anybody.
    Mr. DeSantis. And so I know the ICC is separate from the 
U.N., but if you look over the years at how the U.N. has ganged 
up on Israel, we could see that the ICC would likely be in a 
similar--they would probably have a similar perspective?
    Ms. Pletka. I think for the ICC the question has always 
been whether the member parties, the party stays to the Rome 
Statute and the actual staff of the International Criminal 
Court care more about the institution or care more about their 
political axes to grind, and this is the moment of truth for 
them. If they go forward with this, with this completely 
contradictory, as you have all noted, this notion that an 
occupied territory that is also a state, that also has 
standing, that it can also bring a case against another country 
that isn't a party--we could go on with the contradictions 
here--if they decide that they want to go forward with this, 
then I think it is the beginning of the end of the ICC as a 
viable institution. That is a choice for them.
    Mr. DeSantis. Yes, sir.
    Mr. Kontorovich. Yeah, I want to add to that.
    Mr. DeSantis. Your mike. Just put your mike on.
    Mr. Kontorovich. So it seems at first a mystery why the 
Palestinians, who use rocket attacks on civilian cities as a 
primary strategy in war, why they would wish to avail 
themselves of the ICC. And some people who are optimists say, 
well, this is a wonderful salutary development because it shows 
the Palestinians want to open themselves up to accountability 
and international justice.
    But it is important to understand what the ICC can do and 
has done. Its track record shows that it is incapable of 
rendering impartial justice in an ongoing, bilateral conflict. 
It is not some well-established Olympian seat of judgment; 
rather, it is a weak, conflicted, and floundering institution 
beset by all sorts of problems.
    The last two times they tried to go after an incumbent 
regime that did not want to be prosecuted--and this was just in 
the past few months--the prosecution of the President of Kenya 
and the President of Sudan, both of those cases collapsed due 
to the noncooperation of those countries. And in particular, in 
the Kenyatta case, the cooperation was subtle and there have 
been no sanctions against Kenya for this. And, basically, the 
Kenya proceedings have proven to be a playbook--and many 
international commentators have said this--for countries who 
wish to not cooperate with ICC jurisdiction.
    Now, in the Kenya case, what they did was intimidate 
witnesses. Now, in Gaza, the witnesses are pre-intimidated, 
right. In a place where you shoot 20 collaborators in a day, 
nobody is going to go and point out to ICC investigators where 
the Hamas rocket launches were. So they can really win both 
ways. They have the appearance of accepting international 
responsibility while in practice, de facto, having impunity.
    Mr. DeSantis. And this idea that--some would say it is a 
good sign they want to be held accountable. I know Secretary 
Kerry has pledged money. I know countries like Qatar have 
pledged a lot of money to<greek-l>, quote, deg. ``rebuild the 
Gaza strip.'' And I think a lot of people like me see the kind 
of rinse and repeat where Hamas will use that money to rebuild 
tunnels, acquire more rockets.
    So is anyone on the panel, can you weigh in on, are we just 
repeating ourselves with that money going down there? Is there 
any evidence that that money is actually being used to rebuild 
it in a different way, or are we going to just see more tunnels 
and more rockets?
    Mr. Schanzer. Well, actually, the good news right now is 
that the international community is very gun shy about actually 
delivering these funds. Look, there is a downside of that, of 
course, which is the Palestinian people are suffering as a 
result of not enough aid coming in, but there is a sense now 
that it is not rinse and repeat, that the international 
community has gotten wise to the process that you have 
described. And so I think now there is going to be cause for 
greater accountability in the way that money flows to the Gaza 
strip.
    Mr. DeSantis. I am out of time, and I will yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair.
    Thank you very much for your testimony. The U.S., as you 
all noted, is not a party to the Rome Statute and obviously 
doesn't provide financial support to the ICC. Are there any 
levers that are available to the United States that would allow 
us to assert some pressure on the court not to pursue a case? 
And second part of that question is, is there any likelihood 
that there might be an allied country who would pursue actions 
against the Palestinian authority if their action subjects them 
now to jurisdiction of the ICC to sort of take advantage of 
that event?
    Mr. Kontorovich. Let me address the existing mechanisms. 
Indeed, there are mechanisms to pressure the ICC. Now, much of 
the direct pressure is limited because already we have so 
little cooperation, but it is important to identify the real 
bad guy here. According to the ICC prosecutor, she is not the 
one who decided unilaterally that the Palestinians are a state. 
Rather, she says it is the United Nations who decided that the 
Palestinians are a state. And in her statement, she said she is 
completely bound by the decision of the General Assembly.
    Now, under existing law, any agency of the United Nations 
which gives the Palestinians the same standing as a member 
state must have its funding cut off immediately. Now, standing 
is something short of membership. So it doesn't mean 
membership; it means things other than membership. If it turns 
out that the vote of the General Assembly gives the 
Palestinians the opportunity to automatically join the ICC 
without any inquiry, substantive inquiry into whether they 
actually are a state, that is something only reserved otherwise 
so far for U.N. member states.
    That means, quite astonishingly, and it is a big thing, 
that the U.N. itself or the General Assembly could face an aid 
cutoff. Now, of course, that is not something one should do 
immediately. Rather, one should seek clarification from the 
General Assembly: Did they, in fact, in this vote intend to 
create automatic ICC standing for the Palestinians with, of 
course, the explanation and the full disclosure that if their 
answer is yes, that would trigger consequences under U.S. law?
    It is likely that the representatives of the United Nations 
would respond, No, we did not have any such intention. We were 
simply voting an internal symbolic thing, internal to the 
General Assembly that has no consequence--which is true, and 
that is actually correct--that has no consequences beyond the 
General Assembly. And that is right, but it is important to get 
them on record as saying that, firstly, because if the ICC 
prosecutor is right then we have to cut funding to the United 
Nations. If the ICC prosecutor is wrong, then she has to 
dismiss the investigation involving Israel.
    Mr. Makovsky. Can I just, what I said in my remarks, I 
think we should follow what the Canadian Government is doing. 
The Canadian Government has said we don't recognize Palestine 
as a state--which is true, by the way, not just for the U.S. 
but also for Europe--for almost all of Europe--and, therefore, 
we don't agree with the premise of their membership, and 
therefore, we are not going to cooperate with any ICC 
investigation in this regard. I think that would be powerful. 
And the fact that the Canadians have already taken that first 
step, I think, is something that we should emulate and urge our 
allies to do the same.
    Ms. Pletka. But, Mike, I mean, we already don't cooperate 
with the ICC in any meaningful way. We don't provide them with 
any assistance. So, you know, those are nice words, but I don't 
think that they are going to be a death blow to the 
investigation.
    Mr. Makovsky. Well, I mean, we are talking about, our 
allies are members of the ICC, and so, therefore, it is 
meaningful.
    Mr. Cicilline. Thank you.
    My final question is, is it the position of the panel that 
the filing of charges by the ICC is the event that under 
existing U.S. law requires funding to be terminated, or is it 
the association with the ICC? In other words, what is the event 
under current U.S. law that requires funding to the PA to be, 
you know, ended?
    Mr. Kontorovich. It is definitely well short of charges. 
Charges are at the conclusion of a judicial investigation. So 
the statute is, unfortunately, a bit ambiguous. It could be the 
opening of an investigation, which is the next step but before 
the step of charges, or it could be the current step of a 12(3) 
referral, which automatically launches a preliminary inquiry.
    Now, the language is ambiguous. It is consistent, I think, 
with the clear intent of the legislation for the funding to 
be--for the trigger to be the 12(3) declaration, which triggers 
the preliminary investigation. And so it is really a matter of 
legislative intent and interpreting ambiguous terms.
    Mr. Cicilline. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    I appreciate the panel being here. Last March, right here 
in this same committee room, we had a meeting on terrorism, 
nonproliferation, and trade on the subcommittee where we had 
testimony from Edwin Black saying that the money that we give 
to the Palestinian authority, it is fungible, and it indirectly 
supports PLO payments going to Palestinians, and/or their 
families, who have been accused or convicted of terrorism.
    And last Congress, after that meeting, I introduced 
legislation that called on the PA to halt payments until that 
practice is stopped and Resolution 21 and 23 in their laws 
remove that. Since then, it seems like they have changed how 
that money is going, and it is going directly from the PLO to 
the terrorist.
    What suggestions do you have in stopping this practice 
totally? Because we are giving that money to the Palestinian 
authority into the Middle East, which has received probably, 
per capita, more money than anyplace else in the name of peace, 
but yet we are not getting that. And so how do we stop that? If 
we truly want peace, are we just going to play the cat-and-
mouse game and the shell game of moving stuff around?
    So I would like to hear from you, Dr. Schanzer, start with 
you and down the line.
    Mr. Schanzer. Sure. Thank you, Congressman Yoho.
    The answer to your question is, I am not exactly sure that 
that dynamic has shifted to the PLO just yet. There was an 
indication when the unity government was formed last spring 
that they were going to shift it to the PLO and would basically 
exonerate the PA----
    Mr. Yoho. Right.
    Mr. Schanzer [continuing]. Out of the crosshairs of 
Congress. It is my understanding that even though they plan to 
do that, they have not shifted those responsibilities, and I 
couldn't tell you exactly why that has happened.
    Mr. Yoho. Okay. To me, that is unacceptable. And where I 
come from, people don't want any money going there, especially 
if we are getting it in the name of peace and we are not 
accomplishing that. I mean, we are all adults here; we need to 
stop playing games if this is truly what we want. And I want to 
hear from you guys. We will go down real quick. I am down to 3 
minutes.
    I am not going to try to pronounce your last name.
    Mr. Kontorovich. It is actually phonetic. Kontorovich.
    So I just want to briefly shift the emphasis of the inquiry 
from the money we are giving to the Palestinians, which is a 
very complicated lever. As you have heard from lots of people 
on the committee, there is lots of tensions. If you take away 
the money, maybe the Palestinian authority will collapse. 
Israel has mixed feelings. I think it is useful to think of 
other ways of pressuring the Palestinians without messing with 
their money.
    And I would point out briefly, money to Israel could be 
used in a way which would strongly check the current 
Palestinian----
    Mr. Yoho. I need to correct you, that money is our 
taxpayers' money that we are giving in good faith. So if we are 
going to do that, I want the results for that or I don't want 
to support giving that money to them.
    Ms. Pletka, can I hear from you?
    Ms. Pletka. I think the law is pretty clear. And I think 
the legislative intent is also pretty clear. I think the time 
has come to put a stop to it. You know, I think that the 
simplest thing is something I have said to this committee many, 
many times before, which is that all aid should be visited on a 
very periodic and frequent basis.
    Mr. Yoho. I agree.
    Ms. Pletka. Stop it, look at it, and decide year to year 
exactly how it meets your needs. And this provides an 
opportunity to have that sort of strategic----
    Mr. Yoho. Let me hear from Mr. Makovsky.
    Mr. Makovsky. It is an excellent question. I don't think 
the answer is good enough for the question, frankly. There are 
some things that, believe me, I have spoken to them, that the 
U.S. Congress scares the daylights of them.
    Mr. Yoho. Good.
    Mr. Makovsky. For example, there was the whole issue last 
summer of Qatar moving salaries to people in Gaza, and the PA 
said we can't touch this or the United States Congress is going 
to shut us down. So sometimes Congress has more of a deterrent 
club than it realizes, and I hope it makes its point forcefully 
on the issue of aid to the terrorist families too because I 
think it is an important point.
    Mr. Yoho. I appreciate it.
    And then let me ask you this: Which aid program or policy 
would you suggest we here in Congress scale back or reform? 
And, again, this raises the question of we already have laws 
preventing ICC from being funded. Would it be more prudent for 
the U.S. to concentrate on reforming funding to the U.N. 
agencies which seem to be supporting the Palestinian until we 
get clarification on what they are doing? Dr. Kontorovich.
    Mr. Kontorovich. Again, under current law, might actually 
give Congress and the United States an extraordinary, 
surprisingly broad leverage to cut off funding from the United 
Nations in general. And, obviously, that is a serious action, 
but in the shadow of that action and the availability of that 
sanction under existing law gives the United States a lot of 
power and leverage to demand concrete reforms.
    If, for example, the General Assembly has gone beyond its 
role under the United Nations charter and is creating 
countries, that counts very powerfully for seriously revisiting 
funding to the United Nations as a whole.
    Mr. Yoho. And I appreciate that. And that is a serious 
action, but these are serious times, and I think it is time we 
take serious action. Thank you for your time.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    And we are going to try to get Mr. Boyle's questions in. We 
have a series of votes. Thank you.
    Mr. Boyle. Thank you, Madam Chair.
    I was wondering, given that we are about 6 weeks away from 
Israeli election on March 17 and especially given the constant 
jockeying that is happening between Hamas and the Palestinian 
authority, I was wondering to what extent you believe the next 
6 weeks will be a destabilizing time for the Palestinian 
community and Palestinian leadership, particularly given that 
the latest polls in Israeli election show it literally within 
possibly one seat?
    Mr. Makovsky. Look, I would say, what I said in my remarks, 
I think they need to find stop gaps because it is not just the 
election of March 17. There probably won't be a government 
until the end of May because it takes a long time; there is a 
lot of jockeying formation. And, therefore, you know, this is 
not something that is going to be solved tomorrow. I don't 
think in an election mode Israel is going to change its 
policies. So I think the PA has to look elsewhere.
    If you want to talk about ideas about the Israeli election, 
I am happy to discuss in a different format, but I don't want 
to muddy the waters here on that.
    Mr. Boyle. Did anyone else have a comment on that?
    Mr. Schanzer. Look, I would just add this, by 
``destabilizing,'' if you mean that the Palestinians would be 
willing to perhaps restart a conflict or challenge the Israelis 
in other ways, I think that right now the PA is probably 
realizing that anything that they do--and Hamas is probably 
realizing the same thing--would probably help Netanyahu, and 
this is the guy that they hope to see lose during the election. 
So I think the conventional wisdom is that all of the actors 
might try to keep quiet during this time.
    I think the ICC bid has been, to a certain extent, to gift 
to Netanyahu, quite frankly, saying, look, these are the people 
that we are trying to negotiate peace with and look what they 
are doing. And so I would expect over the next several weeks 
for there to be relative calm.
    Mr. Boyle. Well, that is certainly logical--and we would 
expect that--although, in one sense, one could say that the 
leadership or the behavior of Palestinian leadership has, in 
many ways, dictated Israeli elections all the way for the last 
20 years.
    The other question I had was, especially given what 
happened in Lebanon just in the last week, the latest on the 
relationship between Hezbollah and the Hamas. I know that is a 
little bit more broad than specifically the ICC issue, but of 
course all these are interconnected.
    Mr. Makovsky. If I could, by the way, just add to what John 
said, I just want to be clear that, I was in Ramallah a couple 
weeks ago, and what is different this time than the previous 
election cycle, as it seems to me, is the PA is far more 
passive than they usually are. They are usually inviting 
Israeli political delegations, giving interviews on Israeli 
television. Abbas did that regularly in the last two cycles. 
This time he isn't. Sometimes--I think this time he is thinking 
differently. He said on the Security Council and he said in his 
Arab League speech 2 weeks ago in Arabic that there is going to 
be no change no matter who wins.
    That is why I think he wants this to be the year of the 
international intifada. Go ICC with one hand; U.N. Security 
Council on the other hand. And I, personally, think it will 
boomerang on him, but I think that seems to me his approach, 
which is he is in a kind of post-Israel phase, from his 
perspective. I think it is a terrible mistake.
    On the Hamas-Hezbollah, I don't see the connection right 
now. I mean, they seem to be very much in different spheres. 
And Hezbollah is also, you know, intervening in the Syrian 
Civil War. There was a back and forth we saw the last couple 
weeks, but the Israelis I talked to on the security side did 
not expect a major escalation with Hezbollah because they think 
Hezbollah's intentions are elsewhere. So you know, we shall 
see.
    And I should say, in terms of the Israeli elections, often 
security arrangements, security incidents traditionally have 
helped the more rightwing elements in Israel in elections. But 
if there was attacks from Gaza, it could go the other way since 
you have a government that was in charge and said we took care 
of this problem. Anyway, we will have to see. Let's all hope 
for a peaceful time toward the elections and certainly beyond 
it for both of these people.
    Ms. Ros-Lehtinen. Thank you so much, sir.
    And I apologize to Ms. Ming and Mr. Higgins, but we have a 
series of votes, including debate time. Is there anything that 
you would like to make a statement about before we adjourn the 
subcommittee?
    I will submit it for the record. Thank you, Mr. Higgins. 
Without objection.
    Ms. Meng, my apologies to you. I will be glad to come back. 
Okay. I just don't know. It will be a long time.
    Witnesses, thank you so very much for being with us, and 
audience members and Capitol Police.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 3:29 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 [all]
                                 
</pre></body></html>
